      Department of Homeland Security




         Information Technology Management
              Letter for the Immigration and
         Customs Enforcement Component of
      the FY 2011 DHS Financial Statement Audit




OIG-12-50                                         March 2012

                                                                                Office of Inspector General

                                                                     U.S. Department of Homeland Security
                                                                                   Washington, DC 25028




                                         March 14, 2012


                                             Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established
by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, and special reports prepared as
part of our oversight responsibilities to promote economy, efficiency, and effectiveness within
the Department.

This report presents the information technology (IT) management letter for the Immigration and
Custom Enforcement (ICE) component of the fiscal year (FY) 2011 DHS consolidated financial
statement audit as of September 30, 2011. It contains observations and recommendations related
to information technology internal control weaknesses that were summarized in the Independent
Auditors’ Report dated November 11, 2011 and presents the separate restricted distribution
report mentioned in that report. The independent accounting firm KPMG LLP (KPMG)
performed the audit procedures at the ICE component in support of the DHS FY 2011
consolidated financial statement audit and prepared this IT management letter. KPMG is
responsible for the attached IT management letter and the conclusions expressed in it. We do not
express opinions on DHS’ financial statements or internal control or conclusion on compliance
with laws and regulations.

The recommendations herein have been developed to the best knowledge available to our office,
and have been discussed in draft with those responsible for implementation. We trust that this
report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                     Frank Deffer
                                     Assistant Inspector General
                                     Office of Information Technology Audits
                                 KPMG LLP
                                 Suite 12000
                                 1801 K Street, NW
                                 Washington, DC 20006




February 16, 2012


Inspector General
U.S. Department of Homeland Security


Chief Information Officer and
Chief Financial Officer
U.S. Immigration and Customs Enforcement
We have audited the balance sheet of the U.S. Department of Homeland Security (DHS or
Department) as of September 30, 2011 and the related statement of custodial activity for the year then
ended (referred to herein as the “fiscal year (FY) 2011 financial statements”). The objective of our
audit was to express an opinion on the fair presentation of these financial statements. We were also
engaged to examine the Department’s internal control over financial reporting of the balance sheet as
of September 30, 2011, and statement of custodial activity for the year then ended, based on the
criteria established in Office of Management and Budget, Circular No. A-123, Management’s
Responsibility for Internal Control, Appendix A. In connection with our audit, we also considered
DHS’ compliance with certain provisions of applicable laws, regulations, contracts, and grant
agreements that could have a direct and material effect on the FY 2011 financial statements.
Our Independent Auditors’ Report issued on November 11, 2011, describes a limitation on the scope of
our audit that prevented us from performing all procedures necessary to express an unqualified opinion
on DHS’ FY 2011 financial statements and internal control over financial reporting. In addition, the
FY 2011 DHS Secretary’s Assurance Statement states that the Department was unable to provide
assurance that internal control over financial reporting was operating effectively at September 30,
2011.
A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or
combination of deficiencies, in internal control such that there is a reasonable possibility that a material
misstatement of the entity’s financial statements will not be prevented, or detected and corrected on a
timely basis. A significant deficiency is a deficiency, or a combination of deficiencies, in internal
control that is less severe than a material weakness, yet important enough to merit attention by those
charged with governance. In accordance with Government Auditing Standards, our Independent
Auditors’ Report, dated November 11, 2011, included internal control deficiencies identified during
our audit, that individually, or in aggregate, represented a material weakness or a significant
deficiency. This letter represents the separate limited distribution report mentioned in that report.
During our audit engagement, we noted certain matters in the areas of access controls, configuration
management, security management, contingency planning, and segregation of duties with respect to
DHS’ financial systems general Information Technology (IT) controls which we believe contribute to a
DHS-level significant deficiency that is considered a material weakness in IT controls and financial
system functionality. We also noted that in some cases, financial system functionality is inhibiting


                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
DHS’ ability to implement and maintain internal controls, notably IT applications controls supporting
financial data processing and reporting. These matters are described in the General IT Control
Findings and Recommendations section of this letter.
Although not considered to be a material weakness, we also noted certain other items during our audit
engagement which we would like to bring to your attention. These matters are also described in the
General IT Control Findings and Recommendations section of this letter.
The material weakness and other comments described herein have been discussed with the appropriate
members of management, or communicated through a Notice of Finding and Recommendation (NFR),
and are intended For Official Use Only. We aim to use our knowledge of DHS’ organization gained
during our audit engagement to make comments and suggestions that we hope will be useful to you.
We have not considered internal control since the date of our Independent Auditors’ Report.
The Table of Contents on the next page identifies each section of the letter. We have provided a
description of key DHS financial systems within the scope of the FY 2011 DHS financial statement
audit engagement in Appendix A; a description of each internal control finding in Appendix B; and the
current status of the prior year NFRs in Appendix C. Our comments related to financial management
and reporting internal controls (comments not related to IT) have been presented in a separate letter to
the Office of Inspector General and the DHS Chief Financial Officer.

This report is intended solely for the information and use of DHS management, DHS Office of
Inspector General (OIG), U.S. Office of Management and Budget (OMB), U.S. Government
Accountability Office (GAO), and the U.S. Congress, and is not intended to be and should not be used
by anyone other than these specified parties.


Very truly yours,
                                   Department of Homeland Security

                                Immigration and Customs Enforcement

                               Information Technology Management Letter
                                          September 30, 2011




                INFORMATION TECHNOLOGY MANAGEMENT LETTER
                                          TABLE OF CONTENTS
                                                                                                        Page

Objective, Scope, and Approach                                                                           1




Summary of Findings and Recommendations                                                                  2




General IT Control Findings and Recommendations

   Configuration Management                                                                              3


   Access Control                                                                                        3


   Security Management                                                                                   3


       After-Hours Physical Security Testing                                                             3


       Social Engineering Testing                                                                        4


    Segregation of Duties                                                                                4


Application Controls                                                                                     5




                                                APPENDICES

Appendix    Subject                                                                                     Page

   A        Description of Key ICE Financial Systems and IT Infrastructure within the Scope of the FY    6

            2011 DHS Financial Statement Audit

   B        FY 2011 Notices of IT Findings and Recommendations at ICE                                    8

                �     Notice of Findings and Recommendations – Definition of Severity Ratings            9

   C        Status of Prior Year Notices of Findings and Recommendations and Comparison to Current       11

            Year Notices of Findings and Recommendations at ICE

   D        Report Distribution                                                                          13





                           Information Technology Management Letter for the
                           Immigration and Customs Enforcement Component
                              of the FY 2011 DHS Financial Statement Audit
                                 Department of Homeland Security

                              Immigration and Customs Enforcement

                             Information Technology Management Letter
                                        September 30, 2011



                            OBJECTIVE, SCOPE, AND APPROACH

In connection with our audit of DHS’ balance sheet as of September 30, 2011 and the related statement of
custodial activity for the year then ended, we performed an evaluation of the general information
technology general controls (GITC) at ICE, to assist in planning and performing our audit. The Federal
Information System Controls Audit Manual (FISCAM), issued by the GAO, formed the basis of our GITC
evaluation procedures. The scope of the GITC evaluation is further described in Appendix A.
The FISCAM, issued by GAO, formed the basis of our GITC evaluation procedures. The scope of the
GITC evaluation is further described in Appendix A. FISCAM was designed to inform financial auditors
about IT controls and related audit concerns to assist them in planning their audit work and to integrate
the work of auditors with other aspects of the financial audit. FISCAM also provides guidance to IT
auditors when considering the scope and extent of review that generally should be performed when
evaluating general controls and the IT environment of a federal agency. FISCAM defines the following
five control functions to be essential to the effective operation of the general IT controls environment.
�	 Security Management (SM) – Controls that provide a framework and continuing cycle of activity for
   managing risk, developing security policies, assigning responsibilities, and monitoring the adequacy
   of computer-related security controls.
�	 Access Control (AC) – Controls that limit or detect access to computer resources (data, programs,
   equipment, and facilities) and protect against unauthorized modification, loss, and disclosure.
�	 Configuration Management (CM) – Controls that help to prevent unauthorized changes to information
   system resources (software programs and hardware configurations) and provides reasonable assurance
   that systems are configured and operating securely and as intended.
�	 Segregation of Duties (SD) – Controls that constitute policies, procedures, and an organizational
   structure to manage who can control key aspects of computer-related operations.
�	 Contingency Planning (CP) – Controls that involve procedures for continuing critical operations
   without interruption, or with prompt resumption, when unexpected events occur.
To complement our GITC audit procedures, we also performed technical security testing for key network
and system devices, as well as testing over key financial application controls in the ICE environment.
The technical security testing was performed both over the Internet and from within select ICE facilities,
and focused on test, development, and production devices that directly support key general support
systems.




                         Information Technology Management Letter for the
                         Immigration and Customs Enforcement Component
                            of the FY 2011 DHS Financial Statement Audit
                                              Page 1
                                 Department of Homeland Security

                              Immigration and Customs Enforcement

                             Information Technology Management Letter
                                        September 30, 2011


                  SUMMARY OF FINDINGS AND RECOMMENDATIONS

During FY 2011, ICE took corrective action to address some prior year IT control weaknesses. For
example, ICE made improvements over mandatory training for IT security personnel, and Federal
Financial Management Systems (FFMS) password configurations. However, during FY 2011, we
continued to identify IT general control weaknesses that could potentially impact ICE’s financial data.
The most significant findings from a financial statement audit perspective were related to the FFMS
configuration and patch management, and weaknesses over physical security and security awareness.
Collectively, the IT control deficiencies limited ICE’s ability to ensure that critical financial and
operational data were maintained in such a manner to ensure confidentiality, integrity, and availability. In
addition, these control deficiencies negatively impacted the internal controls over ICE financial reporting
and its operation and we consider them to contribute to a material weakness at the Department level under
standards established by the American Institute of Certified Public Accountants. In addition, based upon
the results of our test work, we noted that ICE contributes to the DHS’ non-compliance with the
requirements of the Federal Financial Management Improvement Act.
Of the 11 findings identified during our FY 2011 testing; only 2 were new IT findings. These findings
represent control deficiencies in four of the five FISCAM key control areas: configuration management,
access controls, security management, and segregation of duties. Specifically, these control deficiencies
include: 1) inadequately designed and operating configuration management, 2) lack of effective
segregation of duties controls within a financial application, 3) lack of FFMS patch management, and 4)
weak FFMS account management. These control deficiencies may increase the risk that the
confidentiality, integrity, and availability of system controls and ICE financial data could be exploited
thereby compromising the integrity of financial data used by management as reported in DHS’
consolidated financial statements. While the recommendations made by KPMG should be considered by
ICE, it is the ultimate responsibility of ICE management to determine the most appropriate method(s) for
addressing the weaknesses identified based on their system capabilities and available resources.




                         Information Technology Management Letter for the
                         Immigration and Customs Enforcement Component
                            of the FY 2011 DHS Financial Statement Audit
                                              Page 2
                                    Department of Homeland Security

                                 Immigration and Customs Enforcement

                                Information Technology Management Letter
                                           September 30, 2011



            GENERAL IT CONTROL FINDINGS AND RECOMMENDATIONS

Findings:
During the FY 2011 DHS Financial Statement Audit, we identified the following ICE IT and financial
system control deficiencies that in the aggregate contribute to the material weakness at the Department
level.

Configuration Management
�	 Security configuration management control deficiencies exist on the Active Directory Exchange
   (ADEX). These control deficiencies included default installation and configuration settings on the
   Cisco routers.
�	 Security configuration management over FFMS included:
   - Network servers were installed with default configuration settings and protocols.
   - Mainframe production databases were installed and configured without baseline security
       configurations.

   - Servers and workstations have inadequate patch management.


Access Control
�	 A lack of recertification of FFMS system users.
�	 ADEX system access was not consistently removed for terminated employees and contractors.

Security Management
�	 Procedures for transferred and terminated personnel exit processing have not been reviewed,
   implemented, nor authorized by ICE management.

After-Hours Physical Security Testing:
We performed after-hours physical security testing to identify risks related to non-technical aspects of IT
security. These non-technical IT security aspects included physical access to media and equipment that
housed financial data and information residing within an ICE employee’s or contractor’s work area,
which could be used by others to gain unauthorized access to systems housing financial information. The
testing was performed at various ICE locations that process and/or maintain financial data. The specific
results are listed as shown in the following table:

                                      Total Exceptions by Type                             Total
                                    OCIO/OFM        OCIO PCN 3rd    OCFO PCN 4th       Exceptions by
                                    TechWorld            floor         floor               Type
          Exceptions Noted           10th floor
      User Name and                      5                 3               1                 9
      Passwords
      Keys/Badges                        2                0                1                3
      Personally Identifiable            7                3                2                12

                          Information Technology Management Letter for the
                          Immigration and Customs Enforcement Component
                             of the FY 2011 DHS Financial Statement Audit
                                               Page 3
                                  Department of Homeland Security

                               Immigration and Customs Enforcement

                              Information Technology Management Letter
                                         September 30, 2011


     Information (PII)
     Server Names/IP                    0                5                0                5
     Addresses
     Laptops                           6                1                6                 13
     External Drives                   0                3                0                  3
     Credit Cards                      1                0                1                  2
     Air Card                          1                0                0                  1
     FOUO                              8                6                3                 17
     Total Exceptions by               30               21               14                65
     Location

In addition, a KPMG team member was able to access the Techworld facility using their KPMG badge,
which is not assigned nor recognized by any of the agencies within the Techworld facility.
Social Engineering Testing:
Social engineering is defined as the act of attempting to manipulate or deceive individuals into taking
action that is inconsistent with DHS policies, such as divulging sensitive information or allowing
/enabling computer system access. The term typically applies to deception for the purpose of information
gathering, or gaining computer system access, as shown in the following table:
        Total         Total        Number of people who provided a username and/or password
        Called       Answered
         36             25         1 – Both User Name and Password

Segregation of Duties
�	 FFMS roles and responsibilities for the Funds Certification Official and Approving Official profiles
   were not effectively segregated.

Recommendations:
We recommend that the ICE Chief Information Officer and Chief Financial Officer, in coordination with
the DHS Office of Chief Financial Officer and the DHS Office of the Chief Information Officer, make the
following improvements to ICE’s financial management systems and associated information technology
security program.

For Configuration Management
�	 Implement an immediate and long term remediation strategy to resolve the ADEX authentication
   weaknesses. In addition, configuration management procedures and templates should be reviewed
   and modified as appropriate.
�	 Examine the default configuration installations and system services installed on FFMS network
   devices and remove unnecessary system services.
�	 Ensure that password configuration settings are properly and effectively applied.
�	 Assess the patch deployment and testing processes and develop a process for patching applications
   across the enterprise.
�	 Implement appropriate FFMS database and network server patches and configuration baseline
   parameters consistent with DHS guidelines.

                         Information Technology Management Letter for the
                         Immigration and Customs Enforcement Component
                            of the FY 2011 DHS Financial Statement Audit
                                              Page 4
                                Department of Homeland Security

                             Immigration and Customs Enforcement

                            Information Technology Management Letter
                                       September 30, 2011




For Access Controls
�	 Enforce the existing policies and procedures to recertify FFMS user privileges at the end of each
   calendar year.
�	 Ensure implementation of the ICE Exit Clearance Directive which will establish the process for
   separating employees, both Federal and contractors, and formalize a process to ensure that separating
   employees have their access to all ICE information technology systems removed.

For Security Management
�	 Complete the implementation of the policy which governs the exit clearance process and identifies the
   procedures that separating employees and contractors must take to ensure the return and\or
   safeguarding of government property, equipment, and systems; and the roles and responsibilities of
   ICE offices involved in the exit clearance process.
�	 Continue prioritizing security awareness and social engineering risks in the Annual Information
   Assurance Awareness Training.

For Segregation of Duties
�	 Enforce policies and procedures to ensure that assigned roles and responsibilities are commensurate
   with personnel job functions.

                                   APPLICATION CONTROLS
As a result of the control deficiencies noted above in the Information Technology General Controls,
manual compensating controls were tested in place of application controls.




                         Information Technology Management Letter for the
                         Immigration and Customs Enforcement Component
                            of the FY 2011 DHS Financial Statement Audit
                                              Page 5
                                                                Appendix A
                    Department of Homeland Security

                 Immigration and Customs Enforcement

                Information Technology Management Letter
                           September 30, 2011




                            Appendix A


Description of Key ICE Financial Systems and IT Infrastructure
within the Scope of the FY 2011 DHS Financial Statement Audit




             Information Technology Management Letter for the
             Immigration and Customs Enforcement Component
                of the FY 2011 DHS Financial Statement Audit
                                  Page 6
                                                                                          Appendix A
                                Department of Homeland Security

                             Immigration and Customs Enforcement

                            Information Technology Management Letter
                                       September 30, 2011


Federal Financial Management System (FFMS)
The FFMS is a CFO designated financial system and certified software application that conforms to OMB
Circular A-127 and implements the use of a Standard General Ledger for the accounting of agency
financial transactions. It is used to create and maintain a record of each allocation, commitment,
obligation, travel advance and accounts receivable issued. It is the system of record for the agency and
supports all internal and external reporting requirements. FFMS is a commercial off-the-shelf financial
reporting system. It includes the core system used by accountants, FFMS Desktop for users, and a
National Finance Center (NFC) payroll interface. FFMS currently interfaces with the following systems:
�	 Direct Connect for transmission of DHS payments to the U.S. Treasury
�	 Fed Traveler
�	 The Biweekly Examination Analysis Reporting and Controlling Accounting Data Inquiry, for the
   purpose of processing NFC user account and payroll information.
�	 The Debt Collection System
�	 Bond Management Information System Web

ICE Network
The ICE Network, also known as the Active Directory/Exchange (ADEX) E-mail System, is a major
application for ICE and other DHS components, such as the United States Citizenship Immigration
Services. The ADEX servers and infrastructure for the headquarters and National Capital Area are
located on the third floor of the Potomac Center North Tower in Washington, D.C. ADEX currently
interfaces with the Diplomatic Telecommunications Service Program Office ICENet Infrastructure.




                        Information Technology Management Letter for the
                        Immigration and Customs Enforcement Component
                           of the FY 2011 DHS Financial Statement Audit
                                             Page 7
                                                               Appendix B
                   Department of Homeland Security

                Immigration and Customs Enforcement

               Information Technology Management Letter
                          September 30, 2011




                            Appendix B

FY 2011 Notices of IT Findings and Recommendations at ICE





            Information Technology Management Letter for the
            Immigration and Customs Enforcement Component
               of the FY 2011 DHS Financial Statement Audit
                                 Page 8
                                                                                            Appendix B
                                  Department of Homeland Security

                               Immigration and Customs Enforcement

                              Information Technology Management Letter
                                         September 30, 2011


Notice of Findings and Recommendations (NFR) – Definition of Severity Ratings:

Each NFR listed in Appendix B is assigned a severity rating from 1 to 3 indicating the influence on the
Department of Homeland Security (DHS) Consolidated Independent Auditors’ Report.

      1 – Not substantial 

      2 – Less significant

      3 – More significant


The severity ratings indicate the degree to which the deficiency influenced the determination of severity
for consolidated reporting purposes.

These ratings are provided only to assist the DHS in prioritizing the development of its corrective action
plans for remediation of the deficiency.




                         Information Technology Management Letter for the
                         Immigration and Customs Enforcement Component
                            of the FY 2011 DHS Financial Statement Audit
                                              Page 9
                                                                                                                            Appendix B
                                                      Department of Homeland Security
                                                   Immigration and Customs Enforcement
                                                  Information Technology Management Letter
                                                             September 30, 2011

                                                                  Notice of Findings



FY 2011 NFR #                              NFR Title                              FISCAM Control Area       2011 Severity    New Issue   Repeat Issue
                                                                                                               Rating
 ICE-IT-11-01   ADEX Resource Servers and Workstations have Inadequate           Configuration Management         3             X
                Patch Management
 ICE-IT-11-02   Terminated/Transferred Personnel are not Removed from                  Access Controls           2                            X
                ADEX in a Timely Manner
 ICE-IT-11-03   Access Recertification Review is not completed for FFMS                Access Controls           2              X
 ICE-IT-11-04   Weak FFMS Segregation of Duties                                    Segregation of Duties         2                            X
 ICE-IT-11-05   Security Awareness issues were identified during Social            Security Management           3                            X
                Engineering
 ICE-IT-11-06   FFMS Network and Servers were installed with Default             Configuration Management        3                            X
                Configuration Settings and Protocols
 ICE-IT-11-07   FFMS Mainframe Production databases were installed and           Configuration Management        3                            X
                configured without baseline security configurations
 ICE-IT-11-08   FFMS servers have inadequate patch management                    Configuration Management        3                            X
 ICE-IT-11-09   Default installation and configuration of Cisco routers on ICE        Access Controls\           3                            X
                Network                                                          Configuration Management
 ICE-IT-11-10   Security Awareness issues identified during After-Hours            Security Management           3                            X
                Walkthrough
 ICE-IT-11-11   Lack of procedures for transferred/terminated personnel exit       Security Management           2                            X
                processing




                                              Information Technology Management Letter for the
                                              Immigration and Customs Enforcement Component
                                                 of the FY 2011 DHS Financial Statement Audit
                                                                   Page 10
                                                                  Appendix C
                      Department of Homeland Security

                   Immigration and Customs Enforcement

                  Information Technology Management Letter
                             September 30, 2011




                              Appendix C


Status of Prior Year Notices of Findings and Recommendations and

                             Comparison to 

 Current Year Notices of Findings and Recommendations at ICE





               Information Technology Management Letter for the
               Immigration and Customs Enforcement Component
                  of the FY 2011 DHS Financial Statement Audit
                                    Page 11
                                                                                           Appendix C
                             Department of Homeland Security
                          Immigration and Customs Enforcement
                         Information Technology Management Letter
                                    September 30, 2011


                                                                                      Disposition
  NFR #                                 Description                             Closed         Repeat

ICE-IT-10-01   Procedures for Transferred/Terminated Personnel Exit
                                                                                                    X
               Processing are not Followed
ICE-IT-10-02   Ineffective Password Settings in FFMS                              X
ICE-IT-10-03   Formal policy for FFMS Access Recertification is not
                                                                                  X
               Documented and Approved
ICE-IT-10-04   Weak FFMS Segregation of Duties                                                      X
ICE-IT-10-05   Audit Log Policies and Procedures are not Documented for
                                                                                  X
               FFMS.
ICE-IT-10-06   Terminated/transferred personnel are not removed from ADEX
               in a timely manner                                                                   X

ICE-IT-10-07   Weak Environmental Controls at the OCS Datacenter                  X
ICE-IT-10-08   Weak Environmental Controls at the PCN Computer Room               X
ICE-IT-10-09   Security Awareness Issues Identified during Social Engineering                       X
ICE-IT-10-10   Security Awareness issues Identified during After-Hours
                                                                                                    X
               Walkthrough
ICE-IT-10-11   Training for IT Security Personnel is not Mandatory                X
ICE-IT-10-12   Physical Safeguard Weaknesses exist at DHS DC2 Datacenter          X
ICE-IT-10-13   FFMS Network and Servers were Installed with Default
                                                                                                    X
               Configuration Settings and Protocols
ICE-IT-10-14   FFMS Mainframe Production databases were Installed and
                                                                                                    X
               Configured without Baseline Security Configurations
ICE-IT-10-15   FFMS Servers have Inadequate Patch Management                                        X
ICE-IT-10-16   Default Installation and Configuration of Cisco Routers on ICE
                                                                                                    X
               Network




                     Information Technology Management Letter for the
                     Immigration and Customs Enforcement Component
                        of the FY 2011 DHS Financial Statement Audit
                                          Page 12
                                                            Appendix D
         Department of Homeland Security
      Immigration and Customs Enforcement
     Information Technology Management Letter
                September 30, 2010

Report Distribution

Department of Homeland Security

Secretary
Deputy Secretary
General Counsel
Chief of Staff
Deputy Chief of Staff
Executive Secretariat
Under Secretary, Management
Assistant Secretary, ICE
DHS Chief Information Officer
DHS Chief Financial Officer
Chief Financial Officer, ICE
Chief Information Officer, ICE
Chief Information Security Officer
Assistant Secretary for Policy
Assistant Secretary for Public Affairs
Assistant Secretary for Legislative Affairs
DHS GAO/OIG Audit Liaison
Chief Information Officer, Audit Liaison
ICE Audit Liaison

Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress

Congressional Oversight and Appropriations Committees, as
appropriate




  Information Technology Management Letter for the
  Immigration and Customs Enforcement Component
     of the FY 2011 DHS Financial Statement Audit
                       Page 13
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
